U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 24, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michael Binday v. United States of America,
S.CtNo. 19-273

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 27,
2019, and placed on the docket on August 30, 2019. The government's response is due on
September 30, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 30, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0273
BINDAY, MICHAEL
USA

DAVID W. SHAPIRO
THE NORTON LAW FIRM LLP
299 THIRD ST.
SUITE 106
OAKLAND, CA 94607
510-906-4900
DSHAPIRO@NORTONLAW.COM

